March 3, 2011

DEBORAH C. ESSLER
DISTRICT MANAGER, NORTHERN NEW ENGLAND DISTRICT

SUBJECT: Audit Report –                                         VT Post Office
         (Report Number FF-AR-11-008)

This report presents the results of our audit of the                     Post Office,
                     , VT (Project Number 10BD016FF000). Northern New England
(NNE) District and Northeast Area management requested we conduct this audit, which
addresses financial risk. Our objective was to determine if the U.S. Postal Service is
effectively managing selected financial controls at the                      Post Office
retail and business mail entry operations. See Appendix A for additional information
about this audit.

The                        Post Office reported $3.9 million of operating revenue for
fiscal year (FY) 2010. We conducted this audit in response to a request by the
Postal Service related to an online hotline complaint. Specifically, the U.S. Postal
Service Office of Inspector General (OIG) received a complaint alleging the
         , VT Post Office was not properly processing postage due and business reply
mail transactions. The complainant alleged that there may be thousands of dollars of
funds currently owed to the Postal Service that it has not collected from mailers. The
OIG Office of Investigations referred this matter to the district for resolution and action
deemed appropriate. The district consulted with area office personnel and requested an
audit by the OIG Office of Audit.

Conclusion

The Postal Service did not effectively manage financial operations at the
          Post Office. Specifically, we determined the unit did not properly manage
financial differences,2 advance deposit accounts,3 money order accountabilities,
SmartPay® transactions,4 cash and stamp accountabilities, unit closeout,5 and payroll.


1
  We obtained FY 2010 operating revenue for the                         Post Office from the Financial Performance
Report in the Accounting Data Mart (ADM) for a 12-month period ending September 30, 2010.
2
  Accounting adjustments related to banking and miscellaneous items.
3
  Business Reply Mail (BRM)/ Postage Due (PD)/Merchandise Returns (MR).
4
  The Postal Service SmartPay Purchase Card Program uses purchase cards under the General Services
Administration’s SmartPay Program to expedite purchases and provide visibility of local buying activity.
5
  Refers to the end of day accounting procedure that requires unit personnel to review and file the documents
supporting the day’s transactions and preparation of the unit’s bank deposit.
                           Post Office                                                                   FF-AR-11-008



Our audit did not find that mailers owed funds to the Postal Service; however, the unit
did not timely record BRM transactions totaling $58,552 in FY 2010.

Managing Financial Operations

Management did not effectively implement seven out of 17 financial operations6 we
examined at the                     Post Office. Specifically, the postmaster did not:

   Research and clear financial differences.

   Withdraw funds from the BRM, PD, or MR advance deposit accounts7 daily.

   Manage all accountable items.

   Review SmartPay transactions.

   Complete all unit cash reserve counts at the proper frequency and conduct stamp
    counts according to Point-of-Service (POS) roles designation.

   Properly conduct the unit closeout by verifying that disbursement transactions were
    supported, reviewing the postage validation imprinter (PVI)8 activity report, and
    ensuring that retail associates (RA) follow bank deposit procedures.

   Complete higher-level duty authorizations.

The                        postmaster began her assignment in March 2010 but did not
have a financial background. She was not aware of numerous financial management
requirements and had received limited financial training since 2007. 9 Also, the district
did not take an active role in monitoring financial operations at the unit. The district
finance office provided the post office operations manager (POOM) with the district
manager Financial Control Scorecard10 and relied on the POOM to communicate with
the unit when they missed a scorecard target.11 However, neither the POOM nor the
District Finance Office provided the necessary oversight to ensure the unit took
corrective action to improve low scoring financial controls. We determined that three




6
  We found errors in the following seven financial operations: (1) financial differences, (2) advance deposit accounts,
(3) money order accountabilities, (4) SmartPay transactions, (5) cash and stamp accountabilities, (6) unit closeout,
and (7) payroll.
7
  Customer trust fund accounts which contain advance deposits used to pay for BRM/PD/MR transactions.
8
  The PVI is a machine used by RAs to print postage which is attached to a mailpiece during a window transaction.
9
  The training consisted of the postmaster 18 and 20 Local course, which primarily focuses on delivery issues, and
the SmartPay Purchase Card Web-Based Training course.
10
   The Northeast Area monitors 15 financial controls for 11 districts through the use of the district manager Financial
Control Scorecard.
11
   The district manager Financial Control Scorecard presents financial data results in green and red font, with green
signifying achievement of the target and red signifying a missed target.


                                                           2
                       VT Post Office                                                                 FF-AR-11-008



financial operations related to 13 scorecard controls were deficient at the
          Post Office.12

As a result, the unit did not implement controls designed to detect and prevent
erroneous and fraudulent accounting transactions, report all revenue, and provide
adequate management over accountable items. Specifically, the unit did not:

   Monitor and resolve 25 financial differences with an absolute value of $45,153
    during the period October 1, 2008, through September 20, 2010. The Postal Service
    would have recovered $39,667 in questioned costs if the unit monitored these
    differences.

   Record revenue transactions valued at $58,552 daily as of August 31, 2010. The
    unit processed BRM/PD/MR mail for customers daily but only put the invoices in
    PostalOne! on a weekly or monthly basis as directed by the postmaster. Delays in
    recording revenue transactions can result in the unit misplacing documents and not
    recording revenue.

   Record 380 blank money orders to the unit inventory and destroy 100 obsolete
    money orders as of October 19, 2010. The Postal Service was at risk of having
    these money orders misappropriated and cashed for up to $480,000.13

See Appendix B for our detailed analysis of this topic and Appendix C for the details of
monetary and other impacts.

Unit management at the                        Post Office took corrective action by
addressing several issues during the audit. Specifically, the postmaster destroyed or
recorded 480 money orders in the unit inventory, assigned personnel to conduct
required daily tasks, and implemented proper unit closeout procedures.

We recommend the district manager, Northern New England District:

1. Direct the postmaster to research and resolve financial differences; review the
   Postage Validation Imprinter Activity Report for mismatch warnings and make
   corrections when necessary; complete higher-level duty authorizations; and ensure
   the SmartPay cardholder and approving official sign, verify, and date credit card
   statements timely.

2. Direct the post office operations managers and the district finance manager to
   provide increased oversight of unit financial operations included in the District
   Manager Financial Control Scorecard.


12
   We found deficiencies with (1) Segmented Inventory Accountability (SIA) Count Compliance - Cumulative
percentage by Quarter, (2) Financial Differences - percentage Banking Errors/Deposits, and (3) Financial Differences
- Ratio Total Transaction Volume/Units.
13
   We valued each money order at $1,000 since that is the largest amount for which someone can cash a money
order.


                                                         3
                  VT Post Office                                               FF-AR-11-008



3. Have the district finance manager determine if other postmasters require financial
   training and provide the training with courses such as those in the Field Finance
   Toolkit.

Management’s Comments

Management agreed with our findings, recommendations, and the $40,660 of monetary
impact. Management stated that the postmaster received training on her responsibilities
on November 23, 2010, and conducted a follow-up review on January 28, 2011.
Management found that the postmaster researched and resolved financial differences
and is maintaining a current log. Management also stated that the postmaster is
reviewing the financial report each day, including a review of the PVI Activity Report for
mismatch warnings, and is following the proper banking deposit process. Further,
management determined that the postmaster is following the proper SmartPay
purchase card procedures which ensure the SmartPay cardholder and approving official
sign, verify, and date credit card statements timely. Finally, management stated the
postmaster immediately implemented the use of PS Form 1723, Assignment Order, for
any employee performing higher-level assignments.

Management stated the district finance manager had provided and will continue to
provide oversight of unit financial operations by reviewing the district manager Financial
Control Scorecard each month with the NNE District’s lead post office operations
managers, and will review additional reports to monitor local payments and unit reserve
counts. Management stated the district finance manager initiated a review process to
compare SmartPay purchases with eBuy requisitions to monitor the SmartPay purchase
card financial control. District personnel will continue to use trained postmasters to
augment efforts of the Northeast Area remediation group and to provide additional
financial control support to district postmasters.

Management stated the NNE District will provide financial training to 300 postmasters,
managers, and supervisors. Managers will use this training, scheduled to be completed
by September 30, 2011, in the future as part of the remediation plan for managers and
supervisors who fail financial controls. Management will also use this training as
employees take on new assignments involving financial responsibilities. See Appendix
D for management’s comments, in their entirety.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendations and
management’s corrective actions should resolve the issues identified in the report.




                                            4
                 VT Post Office                                              FF-AR-11-008



We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Kevin Ellenberger, director,
Field Financial – East, or me at 703-248-2100.




John E. Cihota
Deputy Assistant Inspector General
 for Financial Accountability

Attachments

cc: Steven J. Forte
    Deborah Giannoni-Jackson
    Corporate Audit and Response Management




                                           5
                         VT Post Office                                              FF-AR-11-008



                            APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

Post offices are the initial level where the Postal Service recognizes revenue from
operations. The term “Post Office” includes main offices, stations, and branches.
Postmasters or installation heads are responsible for collecting all receipts for which the
offices are entitled, accounting for all funds entrusted to them, and ensuring the offices
meet all accounting objectives.

The                        Post Office,                         VT, is in the NNE District of
the Northeast Area and reported $3.9 million of operating revenue for FY 2010. We
conducted this audit in response to a request by the Postal Service related to an online
hotline complaint. Specifically, the OIG received a complaint alleging that the
                VT Post Office was not properly processing postage due and business
reply mail transactions. The complainant alleged that there may be thousands of dollars
of funds currently owed to the Postal Service that it has not collected from mailers. The
OIG Office of Investigations referred this matter to the district for resolution and action
deemed appropriate. The district consulted with area office personnel and requested an
audit by the OIG Office of Audit.

OBJECTIVE, SCOPE, AND METHODOLOGY

The objective of our audit was to determine whether the Postal Service is effectively
managing selected financial controls at the                     Post Office retail and
business mail entry operations. To meet this objective we reviewed the following
financial operations:

     Financial
    Operations                                         Scope and Methodology
    Reviewed
 Stamp and Cash               We conducted a count of the unit cash reserve14 on
 Accountability               October 19, 2010, and reviewed the accountability examinations
                              of the unit cash reserve for a 12-month period ending August 31,
                              2010. We also reviewed accountability examinations of the retail
                              floor stock to determine if the unit conducted required counts
                              according to POS roles designations.
 Money Order                  During the unit reserve count, we determined whether the POS
 Accountability               unit had obsolete money orders and whether blank money order
                              stock maintained by the unit reserve custodian was on the unit
                              inventory.




14
     The cash funds which supplement the needs of the unit.


                                                          6
                       VT Post Office                                                                 FF-AR-11-008




    Financial
   Operations                                         Scope and Methodology
    Reviewed
 Master Trust               This unit maintained records for master trust accounts in
 Accounts                   PostalOne!.15 We compared the $80,988 balance for customer
                            advance deposit accounts in the general ledger to the master
                            trust balance reported in PostalOne! as of August 31, 2010.16 We
                            also determined whether the invoices for accounts were being
                            input daily as required to properly record revenue.
 Employee Items             We reviewed unit procedures for tracking and collecting four
                            outstanding employee items as of September 29, 2010.
 Financial                  We reviewed unit procedures for controlling the 25 transactions in
 Differences                account identifier code (AIC) 247, Financial Differences Overage,
                            and AIC 647, Financial Differences Shortage, with an absolute
                            value of $45,153, occurring during the period October 1, 2008
                            through September 20, 2010.
 Unit Closeout               We observed the unit’s closeout procedures and preparation of
 Procedures                  the bank deposit on October 19, 2010.
 Payroll                    We determined employees recorded in the payroll system as
                            “on-duty” were at the unit on October 19, 2010, and verified
                            employees’ higher-level and saved grade assignments for pay
                            period 18, Calendar Year 2010.
 Post Office (PO)           We compared fees and box sizes in the Web Box Activity
 Boxes and Caller           Tracking System (WebBATS) to unit records and actual box sizes
 Services                   in the PO Box section. We also determined whether customers
                            receiving caller services were included in WebBATS and paying
                            their fees.
 Voyager                    We reviewed the Voyager card Personal Identification Number list
                            and all eight transactions ($242) generated for the August FY
                            2010 reporting period.
 SmartPay                   We reviewed the 12 transactions, valued at $2,115, and
 Transactions               certifications for the SmartPay statements for the period
                            October 1, 2009 through August 31, 2010.
 Overrides                  We obtained the PostalOne! Override Report and determined the
                                                    Business Mail Entry Unit (BMEU) had no
                            overrides during the August FY 2010 reporting period. In addition,
                            we determined whether unit management reviewed the report
                            daily to ensure all overrides from the previous day were
                            appropriate.


15
   A suite of services that offers web-based initiatives for business mailers and business mail acceptance employees
to transact business reply mail, permit, and other mailings.
16
   This amount includes advance deposit accounts at the postal retail unit and business mail entry unit.


                                                          7
                     Post Office                                              FF-AR-11-008




     Financial
   Operations                             Scope and Methodology
    Reviewed
 Negative             We obtained the PostalOne! Negative Balances Report for
 Balances             Permit and Periodicals Accounts and determined that customers
                      at the                        BMEU did not have any negative
                      balances.
 Inactive Accounts    We reviewed one inactive permit account to determine whether
 and Refunds          the unit properly closed the account and refunded the balance
                      according to Postal Service policy. In addition, we determined
                      whether the unit maintained the required documentation to
                      support refunds processed.
 Missing              We reviewed the PostalOne! Transaction Summary Report for
 Periodicals          Periodicals for the prior 12-month period ending August 31,
 Postage              2010, and the Pricing and Classification Service Center’s Official
 Statements           Classification Records and Authorization data for Periodicals
                      authorizations to determine whether the unit recorded
                      transactions for all mailings processed.
 Postage              We randomly selected 60 of 205 business and 64 Periodicals
 Statement            postage statements for the August FY 2010 reporting period and
 Processing           reviewed them for completeness and timely posting to
                      PostalOne!.
 Mail Acceptance      We also observed one clerk at the BMEU accept, verify, and
 Observations         clear four mailings during the week of October 18, 2010.

We conducted this performance audit from September 2010 through March 2011 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective. We discussed our
observations and conclusions with management on January 6, 2011, and included their
comments where appropriate.

We relied on data obtained from the Postal Service’s ADM, PostalOne!, and WebBATS
and performed specific internal control and transaction tests on these systems’ data.
We traced recorded financial transactions to and from supporting documentation and
assessed the reliability of computerized data by comparing the computer records to
source documents. We determined that the data were sufficiently reliable for the
purposes of this report. We used Postal Service instructions, manuals, policies, and
procedures as criteria to evaluate internal controls and data reliability. Finally, we
evaluated whether the unit implemented internal controls over financial reporting and



                                            8
               n, VT Post Office                                          FF-AR-11-008



safeguarding of assets, interviewed supervisor and employees, and observed
operations.

PRIOR AUDIT COVERAGE

The OIG has not conducted an audit at the                    Post Office in the past
3 years.




                                            9
                        VT Post Office                                                                  FF-AR-11-008



                                 APPENDIX B: DETAILED ANALYSIS

Financial Differences

The                         Post Office did not effectively monitor and resolve financial
differences. Specifically, management did not reconcile 25 out of 100 outstanding
financial overages and shortages with correcting entries to AICs 247 and 647. These
outstanding entries amounted to a net shortage of $39,667. The postmaster monitored
75 out of 100 financial differences that were created at the unit; however, she did not
realize that differences the St. Louis Accounting Service Center created needed to be
researched and resolved. The NNE District includes this financial control on their
scorecard but did not provide instruction or guidance to the unit. When units do not
comply with financial reporting controls, the Postal Service is at an increased risk of
having inaccurate financial statements; and has an increased vulnerability to fraud,
unnecessary expenses, and lost revenue. See Appendix C for the monetary impact.

Master Trust Accounts

The                          Post Office did not withdraw funds from customer trust
accounts in PostalOne! daily.18 Specifically, the unit did not enter BRM/PD/MR invoices
totaling $58,552 into PostalOne! timely during FY 2010. The postmaster erroneously
directed unit personnel to record invoice amounts on a daily log and put the revenue
into PostalOne! on a weekly or monthly basis. She understood this procedure to be
correct. Additionally, this financial control is not monitored on the district scorecard.
Delays in recording revenue transactions can result in the unit misplacing documents
and not recording revenue. See Appendix C for other impacts.

Accountable Items Management

The                       Post Office did not effectively manage accountable items.
Specifically, unit management did not record to the unit inventory 380 blank money
orders and did not properly dispose of 100 obsolete money orders.19 During the unit
reserve stock count on October 19, 2010, we observed these money orders in the safe
but not recorded on inventory records. The postmaster encountered numerous POS
system problems which prevented her from including the blank money orders in the
RA’s accountable inventory. She did not call the Accounting Help Desk20 to resolve
these issues because she placed a higher priority on other duties. Further, RAs are not
always accessible due to schedule assignments at other offices. Previous unit
management secured the obsolete money orders with the unit reserve stock; however,
the current postmaster did not receive or seek information from the district on disposal
procedures. The postmaster took corrective action during the audit and contacted the


17
   Handbook F-101, Field Accounting Procedures, Section 8-6.1, September 2010.
18
   Handbook F-101, Sections 17-5.1 and 17-531.2(c).
19
   Handbook F-101, Section 10-5.1.
20
   The Accounting Help Desk in St. Louis, MO, is the single point of contact for accounting-related questions or
concerns.


                                                          10
                       VT Post Office                                                                FF-AR-11-008



Accounting Help Desk to record the 380 blank money orders to the unit inventory. In
addition, she processed the 100 obsolete money orders for proper disposal.21

Accountable items management is not a financial control monitored on the district
scorecard. See Appendix C for the other impacts.

SmartPay Purchase Card

The                    Post Office did not effectively manage the SmartPay
Purchase Card Program. Specifically, unit management did not:

        Ensure that the SmartPay cardholder and the reviewing official sign, verify, and
         date credit card statements timely.22 As of August 31, 2010 there were
         seven statements in FY 2010 with transactions valued at $2,115 that the credit
         card holder and approving official did not certify.

        Maintain receipts for six of the 12 credit card transactions valued at $993 out of
         $2,115 (47 percent).

In her previous assignments, the postmaster was both the purchase card holder and
approving official; consequently, she believed only one signature was required on the
bank statements. Additionally, in previous assignments, all purchases were made using
a manual system in which there were no supporting documents such as
computer-generated receipts. As a result, she believed she was correctly managing
SmartPay processes and did not seek nor receive guidance from the district. Further,
SmartPay Purchase Card requirements are not a financial control monitored on the
district scorecard; however, during the exit conference, area personnel stated that the
Postal Service is developing an electronic reconciliation program which will provide
additional SmartPay controls. When units do not comply with SmartPay Purchase Card
financial reporting controls, the Postal Service is at an increased risk of fraud,
unnecessary expenses, and lost revenue. See Appendix C for the monetary and other
impacts.

Stamp and Cash Accountabilities

The                       Post Office did not conduct the required accountability
examinations. Specifically, unit management did not:

    Conduct 11 of 12 required accountability examinations of unit cash reserve during
     the period September 2009 through August 2010.23 The acting customer service
     supervisor was erroneously omitted as the unit cash reserve custodian in the POS

21
   The postmaster listed the serial numbers of the money orders on a Postal Service (PS) Form 17, Stamp
Requisition/Stamp Return, and is awaiting her assigned date to return the money orders to the Stamp Distribution
Office for destruction.
22
   Handbook AS-709, Purchase Card Policies and Procedures for Local Buying, Section 177, September 2008
(updated with Postal Bulletin revisions through June 18, 2009).
23
   Handbook F-101, Section 13-8.1.


                                                        11
                       VT Post Office                                                               FF-AR-11-008



     system; therefore, she encountered numerous problems attempting to conduct the
     required counts. Unit management did not seek or receive guidance from the district
     to make the necessary corrections in the POS System to allow the required counts
     to be conducted.

    Count the retail floor stock and unit reserve stock concurrently for three out of four
     required accountability examinations during the period September 1, 2009, to
     August 31, 2010.24 The postmaster erroneously listed herself with dual POS roles as
     custodian of the unit reserve as well as the retail floor stock when she began her
     assignment. She did not realize that by having both POS roles, she was required to
     count both the unit reserve and retail floor stock concurrently.

When units do not properly conduct accountability examinations, the Postal Service is at
an increased risk of undetected fraud at the unit.

Unit Closeout Procedures

The                       Post Office did not comply with key financial reporting controls
related to performing end-of-day closeout and preparing bank deposits.25 Specifically,
unit management did not:

    Verify that 48 of 49 disbursement transactions consisting of expenses and refunds
     totaling $439 were supported. Unit management did not conduct a daily review of
     the supporting documents such as Postal Service (PS) Forms 3533, Application for
     Refund of Fees, Products and Withdrawal of Customer Accounts. They prioritized
     other duties and relied on RAs to follow the POS end-of-day review process.

    Resolve postage meter setting mismatch warning. Unit management reviewed the
     postage amounts for accuracy from the PS Form 1412, Daily Financial Report;
     however, unit management did not take corrective action to eliminate PVI warnings26
     listed on the report.

    Ensure that RAs follow bank deposit procedures. Unit management relied on RAs to
     prepare and witness the daily bank deposit; however, management did not verify the
     process.

When units do not properly follow closeout procedures, there is an increased risk of
banking errors, financial differences, and undetected fraud at the unit.




24
   Handbook F-101, Section 13-4(a).
25
   Handbook F-101, Section 5-4.2.
26
   These messages alert unit personnel that PVI registers or PVI postage totals are inconsistent.


                                                          12
                       VT Post Office                                                               FF-AR-11-008




Payroll

The                        Post Office did not effectively manage payroll controls.
Specifically, unit management did not complete higher-level duty authorizations27 for 14
of 26 higher-level assignments for the period September 1, 2009, to August 31, 2010.28
Unit management authorized higher-level pay in the Time and Attendance Collection
System; however, they misunderstood the requirement to complete a PS Form 1723, for
partial day higher-level assignments. When managers do not complete documentation
to support higher level assignments, the Postal Service is at an increased risk of
overpaying employees.

Financial Management Training and Oversight

The district did not ensure that unit management had sufficient financial training.
Consequently, the postmaster was unaware of many financial management
requirements. We determined the postmaster began her assignment at the
          Post Office in March 2010. Prior to her                          postmaster
assignment, she held several postmaster positions in the NNE District. We determined
through a review of her training records that she did not receive any financial training,
other than SmartPay Purchase Card training, since 2007. The postmaster had a
delivery background; therefore, she relied on district financial control and support (FCS)
resources for guidance in overseeing financial operations. District management stated
that there are difficulties addressing financial training since the restructuring of FCS.
They rely on web-based training; however, the district has not reviewed postmaster
records to determine the extent of their financial operation training.

District management did not provide the unit with the oversight required of all financial
operations relative to the district manager Financial Control Scorecard. The scorecard
monitors 15 financial controls.

We reviewed financial operations related to 13 of the 15 scorecard items at the
                Post Office.29 We identified three financial operation deficiencies
comparable to the scorecard and did not identify any errors in the remaining 10.30 The
three financial operation deficiencies we noted were:



27
   When an employee is temporarily assigned to a higher-level position, the supervisor must complete PS Form 1723,
Assignment Order, authorizing a higher level of pay.
28
   Handbook F-21, Time and Attendance, Exhibit 421.3, (June 2002 updated with revisions through August 2005).
29
   We did not review (1) Performance-Based Verifications - Percentage of Verifications Performed and (2) Cash
Counts - Percentage of POS RAs Counted.
30
   We did not find deficiencies in (1) Postage Statements - Percentage On Time, (2) Non-Active Accounts -
PostalOne! (3) Negative Balance Accounts - PostalOne!, (4) Override Transactions - Number of Statements with
Overrides/Total Statements, (5) Excess Stock - Percent Excess Accountability, (6) Retail Floor Stock - Percentage
Units Excess Retail Floor Stock, (7) Employee Items- Older than 4 Months POS/eMoves Units, (8) Accounts
Receivable - Percentage with Activity, (9) Payment Efficiency Percentage, and (10) Voyager Reconciliation -
Percentage of Unreconciled Transactions.


                                                       13
                  VT Post Office                                               FF-AR-11-008



   Financial Differences – Percentage of Banking Errors to Total Days with Banking
    Activity.

   Financial Differences – Total Number of Unit Transactions.

   SIA Count Compliance – Cumulative Percentage by Quarter.

As discussed previously, unit management at the                         Post Office did
not monitor and resolve 25 financial differences with an absolute value of $45,153
during the period October 1, 2008, through September 20, 2010. Regarding SIA count
compliance, unit management did not conduct 11 of 12 required accountability
examinations of unit cash reserve during the period September 2009 through
August 2010. As discussed previously, the acting customer service supervisor was
erroneously omitted as the unit cash reserve custodian in the POS system; therefore,
she encountered numerous problems attempting to conduct the required counts.

The district did not take an active role in monitoring the financial controls of the unit.
Since losing the FCS resource, they have relied on the POOM to communicate with the
unit when they miss a scorecard target. The unit was informed of low scoring financial
controls but did not know how to address them. Additionally, the district did not follow up
with the unit to ensure compliance with these financial controls.




                                            14
                        VT Post Office                                                                   FF-AR-11-008



                       APPENDIX C: MONETARY AND OTHER IMPACTS

                                              Monetary Impacts

                 Finding Impact                Category                                       Amount
            Unresolved
                              Recoverable unsupported
            Financial                                                                           $39,667
                              questioned costs31
            Differences
            Unsupported
                              Unrecoverable unsupported
            SmartPay                                                                                  993
                              questioned costs32
            Purchases


                         Total                                                                  $40,660

                                                 Other Impacts

                 Finding Impact                Category                                       Amount
            BRM Invoices
            Not Entered       Revenue at risk33 $58,552
            Timely
            Obsolete Money
            Orders Not        Accountable items at risk34 100,000
            Destroyed
            Unrecorded
                              Accountable items at risk                                         380,000
            Money Orders
            SmartPay
            Purchase Card
                              Disbursements at risk35 1,122
            Statements Not
            Certified


                         Total                                                                $539,674




31
   Recoverable costs that are unnecessary, unreasonable, or an alleged violation of laws or regulations. These costs
are also not supported by adequate documentation. The $39,667 financial differences amount represents only the net
shortage transactions.
32
   Unrecoverable costs that are unnecessary, unreasonable, or an alleged violation of law or regulation. These costs
are also not supported by adequate documentation.
33
   Revenue the Postal Service is at risk of losing (for example, a mailer seeks an alternative solution for services the
Postal Service currently provides).
34
   Assets or accountable items (for example, cash, stamps, and money orders) at risk of loss because of inadequate
internal controls.
35
   Disbursements made without following proper Postal Service internal controls and processes.


                                                          15
VT Post Office                        FF-AR-11-008



  APPENDIX D: MANAGEMENT’S COMMENTS




                 16
VT Post Office        FF-AR-11-008




                 17
VT Post Office        FF-AR-11-008




                 18
